                       CLOSE OUT MEMORANDUM
                           .   M89050004
                                                  icer in the Division
                                                  eported that one of
                                                  (the complainant) of
                                                   (the subject's) NSF
                                                  r Learning Temporal
                                                    -plagiarized
                                                        -        from a
report publtshed in May 1988.
O I G obtained an original copy of the report and more specific
allegations of plagiarism from the complainant. On July 27, 1990,
O I G wrote to the subject asking for his views, comments, or
                                              .

explanations of the alleged plagiarism. The subject responded that
(1) he was "under a lot of pressure to write grant proposalsw;
(2) he had only a very short time to prepare his proposal due to
teaching and departmental responsibilities as well as preparing a
tenure dossier; (3) he had no idea of the "mistaken he had made in
referencing due to haste and failure to proofread his proposal;
( 4 ) he regretted being so careless in the preparation of his
proposal; and (5) he told O I G "You can rest assured that this 'has
not happened before and that it will never happen again."
Based on our earlier comparison of texts, we were not persuaded by
the subject's explanations; and, on December 20, 1990, we asked
southern ~llinoisUniversity at Carbondale to accept deferral of
this case. The
transmitted thetnlverslty's final investigative report on June 6,
1991.   After a thorough review, OIG accepted the report of the
deferred investigation as fair, accurate and complete.
The university investigative committee concluded that:                                I

(1) The subject not only plagiarized the report cited in the                          I
original allegation, but also plagiarized to a lesser degree                          I
another publication by two other researchers. In the investigative
committee's judgment the subject "did not take the normal steps or
procedures to avoid plagiarism." The committee found that the
subject "had reason to believe that his audience wollld take
another's work to be his own and failed to take precautions (by
proofreading, proper use of quotations, e t c . I to correct any
misimpression that might occur.
                                                                                  i
( 2 ) Plagiarized material from the two sources appears not only in       ,       I
the subject's proposal to NSF, but also in his earlier proposal to
the Defense Advanced Research Projects Agency (DARPA) and in a
brief Institute of Electrical and Electronics Engineers ( I E E E )
conference paper. Therefore, the plagiarism of the two sources was
a repeated rather than a single, isolated event.                              I
     (3) The subject did propose a different method of solution than
     that used in the report that he most extensively plagiarized in his
     proposal to NSF. His proposed solution was based on a method
     discussed in the second plagiarized source.          The principal
     investigator's unique contribution was linking one source's
     introduction and definition of the problem to another source's
     presentation of the method of solution.
      (4)  The subject's NSF proposal, by extensive copying and
      paraphrasing, misrepresented as his own the introductory material
      and the defini'tion of the problem. He did not reference or give
L   : proper credit to the iqvestigator whose work was principally
      plagiarized. The subject also misrepresented as his own both words
      and some ideas about the method of solution from the co-authored
      publication.
     The investigative committee also addressed the subject' s voluntary
     response to OIG and found that the subject's various claims of
     pressure and of time constraints were not truthful. The committee
     found that the subject sent his proposal to NSF 2 weeks after
     sending it to DARPA and concluded that he had sufficient
     opportunity both to proofread his NSF proposal and to eliminate
     copied material. The investigative committee also rejected the
     subject's explanation that he intended to reference the source he
     principally plagiarized, but due to a typing error he included the
     wrong reference in his NSF proposal. The committee found that the
     only sentence in the subject's NSF proposal referring to the
     plagiarized   investigator was      taken   directly    from   that
     investigator's publication. The reference was made by the original
     investigator who was citing some of his earlier work. In addition,
     the investigative committee concluded the subject's statement that
     this was an isolated incident, which had not occurred before, and
     would not happen again was false. The subject had submitted a
     proposal to DARPA 2 weeks before he sent his proposal to NSF, and
     sometime later, he submitted a conference paper containing the same
     plagiarized material.
     Based on these findings, the university imposed its own sanctions.
     It sent a letter of reprimand to the subject and made the letter a
     permanent part of the subject's personnel file at the university.
     Further, the chairman of the subject's department was directed to
     withhold three annual m=rit salary increases to the subject. Also,
     .for 2 years the subject must submit to the chairman of his
     department copies of any proposals he intends to send of,£-campus.
     The complete proposal must be accompanied by a transmittal letter,
     which states that the subject has recently reviewed university
     policies and procedures for research misconduct and that his
     proposal is free of misconduct as described in those policies-and



     curriculum vitae.
In concluding OIG' s investigation, we noted the extensive
plagiarism found, the pattern of activity exhibited in the three
uses of plagiarized material, and that two government agencies
(DARPA and NSF) received proposals containing plagiarized material.
Therefore, on September 30, 1991, when we forwarded both the
university investigative report and the subject's rebuttal to NSF s
Deputy Director for adjudication, we recommended that the subject
be debarred for a 3-year period.
N S F 1 s Deputy Director accepted our recommendation and on November
18, 1991, the subject received a detailed proposed notice of
debarment and was,informed thaF he had 30 days in which to respond.
The proposed debdrment became final on December 19, 1991,
with no response from the subject. On January 8, 1992, NSF's
Deputy Director informed the subject that his debarment had become
final. On January 14, 1992, the NSF Of£ice of General Counsel
reported to GSA that the subject had been debarred from directly or
indirectly obtaining the benefit of Federal research grants for a
3 year period commencing on December 18, 1991, and terminating on
December 19, 1994. This case is now closed.




Assistant Inspector General for Oversight
            1992

cc: Inspector General
